Audit of USAID/Macedonia’s Democracy and
Local Governance Program

Audit Report No. B-165-04-004-P

March 25, 2004




      U.S. Agency for International Development
                 Budapest, Hungary
March 25, 2004


MEMORANDUM
FOR:           USAID/Macedonia Mission Director, Richard Goldman

FROM:          Regional Inspector General/Budapest, Nancy J. Lawton /s/

SUBJECT:       Audit of USAID/Macedonia’s Democracy and Local
               Governance Program (Report No. B-165-04-004-P)


This is our report on the subject audit. In finalizing this report, we considered
management comments on the draft report and have included those comments, in
their entirety, as Appendix II to this report.

The report contains two recommendations including cost recovery of approximately
$54,000 to which you concurred in your response to the draft report. Based upon
our evaluation of the Mission’s initial actions to address Recommendation No. 1, we
consider that a management decision has been reached on that recommendation.
Recommendation No. 2 was added to the report as a result of our internal policy
review. However, the discussion of currency exchange fluctuations was included in
the draft report and the Mission agreed that the charge for the currency difference
would be disallowed. Because the Mission already recovered the funds, we consider
that final action has occurred on Recommendation No. 2.

Please coordinate final action relating to Recommendation No. 1 with USAID’s
Office of Management Planning and Innovation.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.




                                                                                 1
(This Page Intentionally Left Blank)




                                       2
Table of   Summary of Results.....................................................................................5
Contents
           Background ..................................................................................................5

           Audit Objectives ..........................................................................................6

           Audit Findings .............................................................................................6

                      How have USAID/Macedonia funds been spent under the
                      Democracy and Local Governance program?..................................6

                      Did USAID/Macedonia monitor its Democracy and
                      Local Governance program to ensure that intended
                      results were achieved? .....................................................................9

                                 USAID/Macedonia Needs To Report Results
                                 Indicators That Better Reflect
                                 Actual Achievements .........................................................10

                                 USAID/Macedonia Recovered Charges
                                 Related To Currency Exchange Fluctuations ....................12

           Management Comments and Our Evaluation ............................................13

           Appendix I - Scope and Methodology .......................................................15

           Appendix II - Management Comments......................................................17




                                                                                                                            3
(This Page Intentionally Left Blank)




                                       4
Summary of   This audit of USAID/Macedonia’s Democracy and Local Governance (DLG)
Results      program was designed to determine how the Mission spent funds and whether it
             monitored activities to ensure that intended results were achieved. The audit was
             part of the Office of Inspector General’s fiscal year 2004 Annual Plan and was
             conducted to promote improvements in the way that USAID manages for results
             (see page 6).

             As of September 30, 2003, USAID/Macedonia—through its DLG Office—funded
             15 projects with obligations of $60.7 million and cumulative expenditures of
             $44.2 million. The Mission spent these funds to assist with Macedonia’s
             development of more legitimate democratic institutions. To accomplish this
             objective, the DLG Office designed projects to increase citizen participation in
             political and social decision-making, enhance adherence to the rule of law, improve
             the effectiveness and accountability of local government, and increase confidence in
             government institutions and political processes (see pages 6-9).

             USAID/Macedonia monitored DLG programs to ensure that activities achieved
             their intended results. However, the Mission’s annual performance reporting does
             not fully reflect USAID’s impact in Macedonia because of USAID/Macedonia’s
             predominant use of public perception surveys to measure results of DLG
             activities. The Mission should review its performance indicators and select a new
             mix of indicators that better represents their program’s performance (see pages
             9-12).

             USAID/Macedonia approved for payment an erroneous charge of $54,000
             relating to currency fluctuations. When we questioned this charge, the Mission
             acted promptly to recover the payment, and these funds are now available for
             small community development grants as intended (see page 12).

             USAID/Macedonia officials agreed with the report findings and drafted a revised
             Performance Monitoring Plan as a first step to reevaluating and selecting a new
             mix of performance indicators to address our concerns regarding
             Recommendation No. 1. Mission officials agreed that approximately $54,000
             should be disallowed and recovered the charge (see page 13).



Background   Macedonia is an ethnically diverse country with a population of just over 2 million
             people. The most recent census divides the population into the following ethnic
             groups: 64 percent Macedonian, 25 percent Albanian, 4 percent Turkish, 3 percent
             Roma, and 4 percent other. In February 2001, an armed uprising of ethnic Albanian
             extremists in Western Macedonia spread to the outskirts of the capital of Skopje and
             prompted over 100,000 people to leave their homes. This conflict ended in August
             2001, however, ethnic tension in the country still exists and political reforms are
             difficult.


                                                                                               5
                   USAID/Macedonia’s strategy is directed toward the fundamental causes of potential
                   conflict within the country. Therefore, the Democratic and Local Governance
                   (DLG) program targets the underlying causes of conflict, such as unemployment, a
                   weak civil society, lack of minority participation in the public sector, and over-
                   dependence on the government’s patronage system for jobs and business
                   opportunities. Patronage and corruption obstruct transparency and accountability in
                   the political system. The civil society is neither sufficiently developed to exert
                   influence over the actions of political players, nor proactively functions to meet
                   citizen needs. In addition, the judiciary does not exert adequate checks and balances
                   in the system. Therefore, USAID/Macedonia’s DLG program is an integral
                   component of the Mission’s Strategic Plan and essential for Macedonia’s future
                   growth into a stable, healthy democracy with economic opportunities for its citizens.

                   USAID/Macedonia’s DLG program implements activities to (1) strengthen civil
                   society, (2) improve respect and implementation of laws, (3) build the capacity of
                   local government, and (4) increase the trust in political institutions and processes. In
                   fiscal year 2003, USAID/Macedonia spent $15.3 million, or 26 percent of the
                   Mission’s total expenditures, on the DLG program.



Audit Objectives   This audit was part of the Office of Inspector General's fiscal year 2004 Annual
                   Plan and was conducted to promote improvements in the way USAID manages
                   for results, including planning, monitoring, and reporting on program activities.

                   The audit was conducted to answer the following questions:

                          How have USAID/Macedonia funds been spent under the Democracy and
                          Local Governance program?

                          Did USAID/Macedonia monitor its Democracy and Local Governance
                          program to ensure that intended results were achieved?

                   The scope and methodology of this audit are detailed in Appendix I.



 Audit Findings    How have USAID/Macedonia funds been spent under the Democracy and
                   Local Governance program?

                   As of September 30, 2003, USAID/Macedonia had 15 active democracy and local
                   governance projects with total obligations of $60.7 million and total cumulative
                   expenditures of $44.2 million. The Mission incurred these expenditures to meet its
                   strategic objective to assist Macedonia’s development of more legitimate democratic
                   institutions. To that end, USAID/Macedonia—through its DLG Office—spent these
                   funds to increase citizen participation in political and social decision-making,
                   enhance adherence to the rule of law, improve the effectiveness and accountability

                                                                                                         6
of local government, and increase confidence in government institutions and
political processes.

For detailed review, we selected the four DLG activities with the largest total
obligated amounts—approximately $41.4 million—and total expenditures of $29.4
million as of September 30, 2003. Each activity’s major purpose, key indicators and
related accomplishments are presented below.

Community Self-Help Initiative—USAID/Macedonia has increased citizen
participation in political and social decision-making in response to the most crucial
needs of communities in Macedonia through the Community Self-Help Initiative
program (CSHI). The Mission designed this program to mobilize community-level
activities that create jobs and economic growth. CSHI fostered community self-
determination by using community improvement grants to address community
economic, community service, and small infrastructure needs. The Mission spent
$12.8 million on this program since May 2000.

To determine the results of this program, USAID/Macedonia measured the percent
of citizen community groups that have already organized and implemented activities
through CSHI and are continuing with the participatory planning and
implementation process. In fiscal year 2003, the Mission reported 118 such groups
versus a target of 70 groups. Furthermore, CSHI has supported 226 individual
community improvement projects with an average cost of approximately $44,000.
These projects included improvements to rural water systems, school renovations,
small business assistance, and employment training.



        Photograph taken on November 17, 2003 of future site of lighted sports court and
        parking area for Photograph taken on November 17, 2003 of future site of lighted
        sports court and parking area for school in village of Rostuse Macedonia, this is the
        second such project in Rostuse being funded through USAID’s CSHI project.




Photograph taken on November 17, 2003 of future site of lighted sports court and parking area for
school in village of Rostuse Macedonia, this is the second such project in Rostuse being funded
through USAID’s CSHI project.




                                                                                                7
Rule of Law—USAID signed a new major contract to support the Macedonia Legal
Reform Support Project. The Project’s overall objective is to further the rule of law
in Macedonia by enabling the Macedonian Judiciary to (1) develop into a stronger,
more effective and independent branch of the government, (2) resolve legal disputes
in a more timely, consistent and legally correct manner, (3) reduce case backlogs, (4)
function in a more transparent, open, responsive and accountable manner, and (5)
develop the capacity and mechanisms for improving court organizations, practices
and performance over time to meet the needs of Macedonians for timely and
consistent protection of their political and economic rights. The Mission spent $1.3
million on this program since September 2002.

This project has several indicators dealing with separate but related rule of law
issues, including (1) public perception of the effectiveness of courts both nationally
and in pilot courts areas, (2) average time for filing of court cases to final
disposition, (3) court user satisfaction surveys and most importantly, (4) key laws
and implementing regulations adopted.

USAID/Macedonia reported that a major task accomplished during fiscal year 2003
was the enactment of the Court Budget Law in September 2003, which gave the
Court system its first separate budget outside of direct Ministry of Finance control.
In addition, this project has worked with seven pilot courts to modernize caseload
management procedures, conducted court user satisfaction surveys, and provided
experts for local training and consultancy studies.

Local Government Reform—The overarching objective of the project is more
effective, responsive, and accountable local government. Results relating to this
program are measured by an annual survey of citizens’ perceptions of effective local
government. According to the most recent survey results, public trust in local
government declined from 53.9 percent to 40.8 percent between 2002 and 2003.
(See discussion under audit objective number 2 relating to the use of public surveys
to measure DLG program results.) The Mission spent $9.1 million on this program
since October 1999.

The program provided assistance to the Association of Municipalities to strengthen
its professional capacity, particularly in advocacy, organized public hearings on
decentralization and created regional sub-commissions. This assistance led to the
signing of a Memorandum of Cooperation between the Association and the
Macedonian Government. The program also supported the establishment of 15
Citizen Information Centers and 5 Citizen Advisory Boards, and organized public
hearings to keep citizens informed about local issues to facilitate citizens’ input into
local decision-making. In addition, the program supported four pilot municipalities
where property tax administration was transferred from the central government to
the local government level.

The Democracy Network—The initial purpose of the Democracy Network
(DemNet) was to develop and strengthen indigenous public policy-oriented non-
governmental organizations (now referred to as Civil Society Organizations, or
CSOs). The latest extension of this cooperative agreement seeks to leave
                                                                                      8
mechanisms and entities in place to provide for continuing support of the
Macedonian CSO sector post-DemNet. The Mission spent $6.2 million on this
program since April 1995.

USAID/Macedonia assesses this program’s results using a combination of annual
surveys of citizens’ participation in political actions and membership in various
groups. The survey data showed that in fiscal year 2003 fewer citizens took part in
political actions, groups, or organizations pursuing their interest. (See discussion
under audit objective number 2 relating to the use of public surveys to measure DLG
program results.) The program also reported the percent of citizen community
groups that have already organized and implemented activities and are now
continuing with the participatory planning and implementation process.

Recently, the program succeeded in assisting a local CSO in Macedonia to become
part of a national committee on HIV/AIDS. A USAID-sponsored CSO applied for
member status with the International Global Fund to Fight AIDS, Tuberculosis and
Malaria and was accepted. This CSO may receive a significant portion of the $6.3
million that the fund will allocate to help fight HIV/AIDS in Macedonia.

Did USAID/Macedonia monitor its Democracy and Local Governance
program to ensure that intended results were achieved?

USAID/Macedonia actively monitored projects implemented under the program to
ensure that intended results were achieved. However, USAID/Macedonia’s selected
and reported performance indicators—used to evaluate strategic objective
performance and report detailed targets and results to USAID/Washington
management and other stakeholders in the annual report—do not accurately reflect
the program’s overall performance. Although the Mission uses over 25 indicators to
monitor that intended results are being achieved, the indicators selected by the
Mission for reporting results in their annual report do not fully meet USAID
requirements.

USAID’s key monitoring and results-related criteria are included in Automated
Directives System (ADS) chapters 202, 203, 302 and 303. Specifically, the
guidance requires appropriate Mission personnel to:

    •   monitor the quality and timeliness of key outputs,

    •   assess performance of contractors and recipients,

    •   set performance baselines and targets,

    •   ensure data quality standards are met, and

    •   meet operating unit reporting requirements.

USAID/Macedonia actively monitored its Democracy and Local Governance
program (DLG) in accordance with applicable USAID ADS chapters. It is the
                                                                                  9
Cognizant Technical Officers’ (CTOs) responsibility to ensure, through liaison
with the contractor or grant recipient, that the terms and conditions of the
acquisition and assistance instruments are accomplished. Responsible CTOs and
Activity Managers within the DLG Office communicated with the implementers of
the projects through daily emails and phone calls, weekly meetings, and frequent
visits to the local project offices. In addition, CTOs frequently performed site visits
to monitor the implementation of activities and documented such monitoring
through trip reports. The documentation in DLG’s files included reviews of work
plans and quarterly reports, approvals of key personnel and payment requests
(vouchers) under the projects. The Mission had an updated Performance
Management Plan assigning data collection responsibilities to specific employees.
The Mission used this data to monitor the performance of its programs by comparing
actual results against established targets. In addition, the Mission accurately
reported its achievement of intended results by stating it met targets in its fiscal year
2003 annual report but only achieved mixed results in the fiscal year 2004 annual
report (see detailed descriptions of project results on pages 7-9).

Finally, during the audit, we conducted several site visits with DLG’s CTOs which
emphasized good working relationships between USAID/Macedonia and the U.S.
Embassy, implementers and local government officials. The visits also highlighted
the CTOs’ strong oversight of projects and allowed us to observe their interaction
with embassy officials, implementing officials, and local community representatives.

Therefore, as described above, the Mission is actively monitoring the DLG program.
However, since mission’s annual reports have become USAID’s primary program
reporting documents, the designated indicators selected for annual reporting should
best demonstrate the respective mission’s progress towards achieving its intended
results. Consequently we have developed the following finding to assist
USAID/Macedonia.

USAID/Macedonia Needs To Report Results Indicators
That Better Reflect Actual Achievements

USAID guidance requires that performance indictors selected for reporting purposes
be, among other things, objective, direct, and attributable to USAID efforts.
Although the Mission uses over 25 indicators to monitor and report that intended
results are being achieved, the indicators selected by the Mission for reporting
results in their annual report do not fully meet these requirements. The selected
indicators are qualitative in nature and are based on citizens’ perceptions of various
democratic institutions. DLG uses public perception surveys as performance
indicators based on a consultant’s recommendation and following the common
practice of using surveys to measure democracy program results. However, these
perception surveys are influenced by circumstances outside the control of
USAID/Macedonia. Consequently, the program results captured by surveying
citizens do not accurately reflect the program’s performance.

ADS 203.3.4.2—“Characteristics of Good Performance Indicators”—provides
seven criteria that should be used in selecting performance indicators. These criteria
                                                                                      10
require performance indicators to be direct, objective, useful for management,
practical, attributable to USAID efforts, timely, and adequate. ADS 203.3.4.6
allows operating units to change, add, or drop performance indicators to meet
USAID’s data needs. Although ADS 203.3.4.1 allows Missions to select both
qualitative and quantitative indicators and Missions must make tradeoffs between
the criteria outlined above, in annual reporting, Missions should designate
performance indicators that will best demonstrate progress towards achieving their
objectives. The public perception survey indicators are useful but do not best
demonstrate Mission progress towards intended results and should be supplemented
with other quantitative measures.

Although the Mission uses over 25 indicators as well as implementer’s annual
workplans and quarterly reports to monitor and report that intended results are being
achieved, the indicators selected by the Mission for reporting results in the annual
report do not fully meet these ADS requirements. In its most recent annual report,
submitted in December 2003, USAID/Macedonia reported its performance results
for fiscal year 2003 using seven performance indicators. Six of these seven
indicators were based on a survey given to Macedonian citizens. These qualitative
indicators are based on citizens’ perceptions of the current status of the various
democratic institutions and are influenced by circumstances that are outside the
control of the program. For example, high unemployment, publicized corruption
charges, and feelings of discrimination by ethnic minorities all influence public
perception of democratic institutions without directly measuring the
USAID/Macedonia DLG program’s success or failure.

While the use of surveys to measure perception of government is practical, timely,
and useful to management, these surveys do not objectively capture all results that
are directly attributable to USAID efforts. As a result, USAID/Macedonia’s positive
achievements are not always captured by the public perception surveys. For
example, USAID/Macedonia’s DLG program (1) significantly contributed to the
peaceful and fair parliamentary elections held in September 2002, (2) assisted in the
recent census that was an integral component of the Framework Agreement to end
the armed ethnic uprising, and (3) provided material technical assistance in the
passage of the Court Budget Law as a step towards an independent judiciary.
Although these achievements are captured in the annual report’s narrative section,
the Mission’s selected annual performance indicators do not address these specific
positive outcomes, but instead include only the often negative perceptions derived
from the broad survey data.

USAID/Macedonia uses survey data to report program performance because this
approach was recommended by a consultant who helped review the Mission’s
Performance Management Plan and construct the annual report for 2002. A DLG
official stated that the Mission decided to use surveys to measure public perception
because the data was readily available and the Mission could easily establish a
baseline for performance measurement. In addition, he stated that within USAID
the use of surveys is a common practice to measure the results of democracy
programs. He added, however, that as the Mission is now consolidating the DLG
program and designing new activities, it is a good time to reevaluate the
                                                                                  11
Performance Management Plan and establish the most relevant indicators (similar to
the recent update of the Rule of Law indicators that selected objective data measures
such as “key laws and implementing regulations adopted” and “average time from
filing of case to final disposition”).

The continued use of only these qualitative survey indicators make it difficult to
determine if intended results are achieved since they can be influenced by actions
outside the control of the DLG program. Therefore, we are making the following
recommendation.

       Recommendation        No.   1:       We recommend      that
       USAID/Macedonia’s Office of Democracy and Local
       Governance, in collaboration with the Program Office, re-
       evaluate and select a new mix of performance indicators for
       inclusion in the 2005 annual report.

USAID/Macedonia Recovered Charges Related
To Currency Exchange Fluctuations

The contract governing the Community Self-Help Initiative program (CSHI) has no
provision for charges relating to currency exchange fluctuations. However,
USAID/Macedonia mistakenly approved the contractor’s charge for Value Added
Tax (VAT) Exchange Rate Difference that was shown as a cost for Community
Improvement Grants. This one-time charge of approximately $54,000 represented
exchange rate variations between the time of a VAT refund submission and the
actual receipt of funds from the Government of Macedonia.

The contractor uses refunds to fund future Community Improvement Grants and
erroneous charges reduce the funds available for such grants. In response to our
concern, USAID/Macedonia quickly recovered the funds.              As a result,
approximately $54,000 is available to fund future Community Improvement Grants
under the program. In order to capture the questioned costs and recovery in
USAID’s Consolidated Audit Tracking System, we are making the following
recommendation.

       Recommendation      No.  2:      We    recommend      that
       USAID/Macedonia recover the approximately $54,000, labeled
       Value Added Tax Exchange Rate Difference, and use these
       funds for future Community Improvement Grants.




                                                                                  12
Management       In response to our draft audit report USAID/Macedonia provided written
Comments and     comments that are included in their entirety as Appendix II. The Mission agreed
Our Evaluation   with Recommendation No. 1 and also agreed with the finding on the charge for
                 currency differences which was formalized as Recommendation No. 2 as a result
                 of the OIG’s internal policy review.

                 In response to Recommendation No. 1, USAID/Macedonia’s Democracy and
                 Local Governance Office revised their Performance Monitoring Plan (PMP) to
                 track three levels of indicators. The Mission stated that in their future annual
                 reports they would not rely heavily on the public perception surveys and would
                 ensure that a proper blend of objective, practical, USAID-attributable and
                 verifiable indicators would be reported. Based upon the Mission’s comments,
                 actions, and our review of the revised PMP we consider that a management
                 decision has been reached on this recommendation.

                 Concerning Recommendation No. 2, USAID/Macedonia determined that the
                 approximately $54,000 of currency exchange difference should be disallowed.
                 The Mission effectively recovered the charge by reducing the contractor’s
                 subsequent voucher. Based upon the Mission’s comments, actions, and our
                 review of the voucher evidencing corrective action, we consider that final action
                 has been taken on this recommendation.




                                                                                               13
(This Page Intentionally Left Blank)




                                       14
                                                                                     Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/Budapest conducted this audit in accordance with
              generally accepted government auditing standards. This audit was designed to
              answer the following questions:

              1.      How have USAID/Macedonia funds been spent under the Democracy and
                      Local Governance program?

              2.      Did USAID/Macedonia monitor its Democracy and Local Governance
                      program to ensure that intended results were achieved?

              As of September 30, 2003, the DLG program had 15 active projects with total
              obligations of $60.7 million and total expenditures of $44.2 million. We tested 67
              percent of the program’s total expenditures, or $29.4 million. In addition, we
              tested the Mission’s monitoring of selected projects for fiscal years 2002 and
              2003.

              In planning and performing the audit, we assessed management controls related to
              management review, proper execution of transactions and events, and review of
              performance measures and indicators. Specifically, we obtained an understanding
              and evaluated (1) the fiscal year 2003 and 2004 annual reports, (2) the
              Performance Management Plan, (3) award oversight performed by Cognizant
              Technical Officers (CTOs), (4) performance measures, (5) actual performance
              results, (6) contractor submitted vouchers, and (7) financial reports for selected
              projects. We also conducted interviews with key USAID/Macedonia personnel
              and implementing partners.

              We conducted the audit at USAID/Macedonia, located in Skopje, Macedonia and
              at various project site locations throughout Macedonia, including the city of Prilep
              and the villages of Rostuse and Trizla. The audit fieldwork was conducted from
              November 13, 2003 through February 6, 2004.

              Methodology

              To answer both audit objectives we reviewed applicable laws and regulations,
              such as the Federal Managers’ Financial Integrity Act of 1982, as well as USAID
              policy and procedures. We selected four projects to review based on the largest
              cumulative obligation amounts as of September 30, 2003. For testing of the
              Community Self-Help Initiative program, the OIG statistician designed a valid
              statistical sample plan using attribute sampling with an error rate of 5 percent and
              a 95 percent confidence level to determine our sample size for detailed testing of
              the project’s reported results. In addition, we validated performance results and
              compared actual versus targeted results to verify the Mission’s determination of

                                                                                               15
the individual project’s performance. For the Local Government Reform project
and The Democracy Network’s public perception surveys, we reviewed the
methodology used and validated raw data collected by the survey contractor.
Finally, for the new Rule of Law project we (1) traced planned activities to
completion or current status as reported by the contractor, (2) found supporting
documentary evidence of trainings, completed work plans, and assessments,
through our review of USAID/Macedonia files, (3) conducted a site visit to one of
the pilot courts, and (4) verified the important passage of the Court Budget Law.
In reviewing the programs/projects we used a 5 percent threshold to determine if
results were accurately reported and a 10 percent threshold to determine if the
activities achieved targeted results.

Further, we interviewed CTOs, implementing partners, and program management
officials. The interviews provided us with an understanding of how CTOs
performed their tasks and oversight of assigned projects. In addition, we
performed site visits with the assigned CTOs for each selected project. Finally,
we reviewed project contracts and agreements, vouchers and quarterly reports for
the selected projects.




                                                                              16
                                                                                                         Appendix II



Management
Comments




                                         USAID MACEDONIA

Memorandum
DATE:           March 5, 2004

REPLY TO
ATTN. OF: Dick Goldman, Mission Director

SUBJECT: Report on Audit of USAID/Macedonia Democracy and Local Governance (DLG)
Program (Report No. B-165-04-00x-P)

TO: Nancy Lawton, Regional Inspector General, Budapest

SUBJECT: Mission response to RIG’s draft audit report dated March 1, 2004

Please find herewith USAID/Macedonia’s comments on recommendation number one and the
additional finding from Audit Report No. B-165-04-00x-P.

Recommendation No. 1: We recommend that USAID/Macedonia’s Office of Democracy and
Local Governance, in collaboration with the Program Office, re-evaluate and select a new mix of
performance indicators for inclusion in the 2005 annual report.

Comment. We agree with this recommendation. As the Audit Report pointed out, USAID/Macedonia
is going through a process of consolidating the DLG program and designing new activities.1 In this
context, the DLG office agrees with the Audit Report that it is appropriate to conduct a significant
revision of the DLG Performance Monitoring Plan (PMP), and to select a new mix of performance
indicators for the inclusion in the Annual Report for 2005 and beyond. Toward this goal, the DLG
office has drafted a revised PMP plan that is summarized below.


1
 Twelve DLG activities will be ending during the course of FY 2004 and 2005; two new activities will be designed in the
areas of local governance and civil society, comprising some two-thirds of the DLG program budget.
                                                                                                                       17
PMP Revision. The revised DLG PMP will track specific performance indicators at three distinct
levels: A) Macro-level indicators that track the progress of the DLG sector as a whole and can be
compared across countries; B) Macedonian national survey data that is accurate and can illustrate
democratic trends over time; and C) project specific data that will directly track the progress and
impact of the Mission’s DLG activities.

Level A Indicators. These indicators include those of broad regional surveys like the Freedom House
Nations in Transit (Governance/ Rule of Law) Rating, ABA/CEELI’s Judicial Reform Index and
USAID’s NGO Sustainability Index. These indicators are needed by the Department of State SEED
and EUR/ACE offices, the USAID E&E Bureau and this Mission, to be able to analyze and compare
progress across the region.

Level B Indicators. The DLG office will continue to utilize the Macedonia Democratic Values Survey2
(MDVS) to track trends and progress in the consolidation of democratic legitimacy; however, the
Mission will not rely heavily on this data in the Annual Report. The MDVS provides some of the most
practical, timely, verifiable and accurate3 data related to citizen participation in democratic processes
and citizen support for democratic institutions. USAID has been tracking this data since 2000, as such
the MDVS provides the Mission with the ability to track the growth of democratic institutions and the
trends in citizens’ support for democracy over time. USAID/Macedonia feels strongly that the MDVS
continues to be an important performance measurement tool, but will not rely on it heavily for the
Annual Report.

Level C Indicators. The DLG office has initiated the process of updating its PMP and identifying and
tracking new indicators at this level. The Court Modernization Project (IR2.2) was initiated in January
2003 and includes more project specific indicators, such as the average time from filing to final
disposition of civil cases and adoption of key laws. As 2003 was the first year for collecting data on
most of the indicators used in IR 2.2, we were not able to report on these indicators in the 2003 Annual
Report. The new integrated local governance activity will include a Municipal Capacity Index (MCI)
that will directly track municipalities’ capacities and ability to assume new responsibilities under
decentralization. A similar, targeted index will be integrated into the new civil society activity that
will be designed later this year.

USAID/Macedonia will ensure that a proper blend of objective, practical, USAID-attributable and
verifiable indicators, across these three levels is reported in the 2005 and subsequent USAID Annual
Reports.

Additional Finding- USAID/Macedonia Recovered Charges Related
To Currency Exchange Fluctuations

USAID’s programs are Value Added Tax (VAT) exempt. As such the Community Self Help Initiative
(CSHI) began submitting requests to the Ministry of Finance for VAT reimbursements beginning in
June 2002. The program began receiving VAT reimbursements on or about October 15, 2002. The
United States Dollar (USD) continued to decline against the Macedonia Denar (MKD) from the
original submittal dates to the actual reimbursements from the Ministry of Finance. The USD


2
  The complete title is the “Macedonian Citizens’ Attitudes and Practices Regarding Democracy and Civic Participation and
their Perceptions about Political, Civil, and Government Institutions”.
3
  These are included in the “Characteristics of Good Performance Indicators” USAID ADS 203.3.4.2.
                                                                                                                       18
devaluation against the MKD over time, and numerous VAT reimbursement requests, resulted in a
difference of $54,000.

CSHI charged the $54,000 currency difference on voucher #77 (dated: October 11-25 2003).
However, after consultation among the RIG auditors and USAID CTOs, it was jointly determined that
USAID disallow the $54,000 previously recorded on voucher #77. These resources will be available
for future CSHI activities. Corrective action was initiated on voucher #78. USAID/Macedonia, RIG
and CSHI identified a systematic solution to this issue and it will not reoccur.




                                                                                                19
